DOE F1325.8
 (08-89)
EFG (07-90)


United States Government                                                               Department of Energy

memorandum
 DATE:        May 25, 1999
REPLY TO
ATTN OF:      IG-36 (A98CH009)                              REPORT NUMBER: ER-FS-99-01
SUBJECT:
              Results of Audit Procedures Performed at Chicago Operations Office During the Audit of the
              Department’s Consolidated Fiscal Year 1998 Financial Statements

TO:
              Robert L. San Martin, Manager, Chicago Operations Office

              INTRODUCTION AND OBJECTIVE

                    The Government Management Reform Act of 1994 requires that audited financial
              statements covering all accounts and associated activities of the Department be submitted
              annually to the Office of Management and Budget. A Departmentwide audit of the
              consolidated Fiscal Year 1998 financial statements was conducted by examining internal
              controls, assessing compliance with laws and regulations, evaluating accounting transaction
              cycles, and testing selected account balances at various Department facilities.

                    The objective of the Departmentwide audit was to determine whether the Department’s
              consolidated financial statements presented fairly, in all material respects, the financial position
              of the Department as of September 30, 1998 and 1997, and its consolidated net cost, changes in
              net position, budgetary resources, financing activities, and custodial activities for the fiscal
              years then ended in conformity with Federal accounting standards. Departmentwide issues are
              addressed in Audit Report No. IG-FS-99-01, issued February 25, 1999.

                    The purpose of this report is to inform Chicago Operations Office management
              concerning matters that came to the attention of the Office of Inspector General during the
              audit at the Chicago Operations Office and two of its integrated contractors: Argonne National
              Laboratory (Argonne) and Brookhaven National Laboratory (Brookhaven). Chicago
              Operations Office is responsible for the account balances entered into the Department’s core
              accounting system.


              SCOPE AND METHODOLOGY

                    The audit was conducted from June 1998 through January 1999 at the Chicago
              Operations Office, Argonne, and Brookhaven. Specifically, we examined internal controls,
              assessed compliance with applicable laws and regulations, and selectively tested account
              balances reported to Departmental Headquarters as necessary to achieve the Departmentwide
              audit objective.
      Audit work was performed in accordance with generally accepted Government auditing
standards for financial audits. Since we relied on computer-generated data, we evaluated the
general control environment of certain financial systems and evaluated the reliability of the
data on a test basis.

      Because the audit was limited, it would not necessarily disclose all the internal control
weaknesses that may have existed. Furthermore, because of inherent limitations in any system
of internal controls, errors or irregularities may occur and not be detected. The issues
addressed in this report represent our observations of activities through the end of fieldwork on
January 5, 1999. Projections of any evaluation of the internal controls to future periods is
subject to the risk that procedures may become inadequate because of changes in conditions or
the effectiveness of the design and operation of policies and procedures may deteriorate.

     In addition to the audit work conducted by the Office of Inspector General, an
independent public accounting firm reviewed Disbursements and Financing.

      The Office of Inspector General considered all findings generated as a result of these
reviews when preparing the audit report on the Department’s consolidated Fiscal Year 1998
financial statements (Audit Report No. IG-FS-99-01) and the management report referred to in
that report.

      Chicago Operations Office management waived an exit conference.


OBSERVATIONS

      No exceptions, material at the operations office or Departmental level, were noted as a
result of applying the specified audit procedures for Chicago and the two integrated
contractors.

     Since no recommendations are being made, a formal response is not required. We
appreciate the cooperation of your staff throughout the audit.



                                                           (Signed)
                                               Terry L. Brendlinger, Manager
                                               Eastern Regional Audit Office
                                               Office of Inspector General

cc:   Director, Audit Liaison Division
                                                                                                     IG Report No. ER-FS-99-01




                                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements, and therefore ask that you consider sharing your thoughts with
us. On the back of this form, you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

         1.       What additional background information about the selection, scheduling, scope, or procedures of the
                  audit or inspection would have been helpful to the reader in understanding this report?

         2.       What additional information related to findings and recommendations could have been included in this
                  report to assist management in implementing corrective actions?

         3.       What format, stylistic, or organizational changes might have made this report's overall message more clear to
                  the reader?

         4.       What additional actions could the Office of Inspector General have taken on the issues discussed in this report
                  which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions about your comments.

Name ____________________________ Date_____________________

Telephone _______________________ Organization_____________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-0948, or you may mail it
to:

         Office of Inspector General (IG-1)
         U.S. Department of Energy
         Washington, D.C. 20585
         ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General, please contact Wilma
Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost effective
as possible. Therefore, this report will be available electronically through the Internet at the following addresses:

                        Department of Energy Management and Administration Home Page

                                           http://www.hr.doe.gov/ig

                                                         or

                                             http://www.ma.doe.gov

Your comments would be appreciated and can be provided on the Customer Response Form attached to the report.
